»

No,

IN THE
SUPREME COURT OF THE UNITED STATES

SHLOMIT RUTTKAMP
Petitioner,
VS.

THE BANK OF NEW YORK MELLON, ET AL.
Respondents),
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the
PETITION FOR A WRIT OF CERTIORARI in the above-entitled case
complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for
the footnotes, and this petition contains 7,133 words, excluding the parts that
are exempted by Supreme Court Rule 33.1(d), as needed.
Pursuant to 28 U.S.C. Section 1749,1, Shlomit Ruttkamp, declare
under penalty of perjury that the foregoing is tru£tand correct.

RESPECTFULLY SUBMITTED, PETITIONER
Pro se

October 5, 2021

Shlomit Ruttkamp
P.O. Box 611
Westbrook, CT 06498
Phone: 860-853-8859
Email: rshlomit@vahoo.com

